<html>
<title> - ENCOURAGING INNOVATIVE AND COST-EFFECTIVE CRIME REDUCTION STRATEGIES</title>
<body><pre>[Senate Hearing 111-588]
[From the U.S. Government Publishing Office]


 

                                                        S. Hrg. 111-588

  ENCOURAGING INNOVATIVE AND COST-EFFECTIVE CRIME REDUCTION STRATEGIES
=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 3, 2010

                               __________

                          Serial No. J-111-76

                               __________

         Printed for the use of the Committee on the Judiciary



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]





                    U.S. GOVERNMENT PRINTING OFFICE
58-004 PDF              WASHINGTON : 2010
__________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0166716e416274727569646d712f626e6c2f">[email&#160;protected]</a> 



















                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel
                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................   150
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................   151
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     3

                               WITNESSES

Berarducci, Patrick J., Chief of Police, Medina Police 
  Department, Medina, Ohio.......................................    12
Esserman, Colonel Dean M., Chief of Police, Providence Police 
  Department, Providence, Rhode Island...........................     9
Monroe, Rodney, Chief of Police, Charlottee-Mecklenburg Police 
  Department, Charlotte, North Carolina..........................     7
Muhlhausen, David B., Senior Policy Analyst, Center for Data 
  Analysis, The Heritage Foundation, Washington, DC..............    15
Schirling, Michael, Chief of Police, Burlington Police 
  Department, Burlington, Vermont................................     4

                         QUESTIONS AND ANSWERS

Responses of Patrick Berarducci to questions submitted by 
  Senators Feingold and Kohl.....................................    28
Responses of Colonel Dean Esserman to questions submitted by 
  Senators Feingold and Kohl.....................................    32
Responses of Rodney Monroe to questions submitted by Senators 
  Feingold and Kohl..............................................    35
Responses of Michael Schirling to questions submitted by Senator 
  Kohl...........................................................    39

                       SUBMISSIONS FOR THE RECORD

Berarducci, Patrick J., Chief of Police, Medina Police 
  Department, Medina, Ohio, statement............................    69
Esserman, Colonel Dean M., Chief of Police, Providence Police 
  Department, Providence, Rhode Island, statement................    75
Monroe, Rodney, Chief of Police, Charlottee-Mecklenburg Police 
  Department, Charlotte, North Carolina, statement...............   153
Muhlhausen, David B., Senior Policy Analyst, Center for Data 
  Analysis, The Heritage Foundation, Washington, DC, statement...   160
Schirling, Michael, Chief of Police, Burlington Police 
  Department, Burlington, Vermont, statement.....................   172
Streicher, Thomas H., Chief of Police, Cincinnati Police 
  Department, Cincinnati, Ohio, statement........................   181

 
  ENCOURAGING INNOVATIVE AND COST-EFFECTIVE CRIME REDUCTION STRATEGIES

                              ----------                              


                        WEDNESDAY, MARCH 3, 2010

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, Pursuant to notice, at 2:30 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Whitehouse, and Sessions.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good afternoon, and I apologize that we had 
to change the schedule around because of Congressman Murtha's 
memorial service this morning. Congressman Murtha and I had 
served together for over 30 years, and our spouses have been 
friends most of that time. So like many others, both 
Republicans and Democrats, we were there for that memorial 
service. And I appreciate Senator Sessions and Senator 
Whitehouse accommodating that schedule.
    One of the things we have done many times in this 
Committee--and seeing so many police officers here reminded me 
of this--is we turn to the critical issue of finding the best 
strategies to reduce crime. I chaired a hearing on this in the 
last Congress.
    We want to hear about innovative approaches that are 
working in police departments and criminal justice systems 
across the country. We want to examine what the Federal 
Government can do to encourage the adoption of approaches that 
make our communities safe, because every one of us relies on 
our police to keep us safe, and every member of our police 
departments puts their lives on the line to do just that. We 
want to effectively and efficiently reduce crime and keep those 
neighborhoods safe.
    In the 1990's, with the leadership of then-Senator Joe 
Biden and others, we passed legislation to create and fund the 
COPS program and other important initiatives that put thousands 
of new officers on the street, but it also, just as 
importantly, encouraged some innovative policing techniques and 
training. Law enforcement leaders in cities and towns 
throughout the country, bolstered by this National support, 
revolutionized the way policing was done throughout the 
country. And we saw the unprecedented drops in violent crimes 
during the 1990's.
    Unfortunately, that progress stalled in the last decade as 
Federal funding for State and local law enforcement dried up 
and Federal attention to finding the best approaches to 
reducing crime wavered. Rates of crime stayed largely stagnant, 
despite skyrocketing incarceration rates, and some communities 
saw, and very frighteningly, significant resurgences in violent 
crime.
    One of the factors that prevented the crime problem from 
worsening in the last decade was continuing innovation at the 
local level. Enterprising police chiefs, hard-working law 
enforcement officers, judges, and community leaders worked 
together to find new and more effective crime reduction 
strategies. A lot of communities saw this pay off in many, many 
ways.
    Now, the economic downturn has put an even greater strain 
on our communities' efforts to keep crime rates down. In 
response to this, Congress and the President acted decisively, 
including $4 billion in Federal assistance to State and local 
law enforcement in last year's stimulus legislation. I fought 
hard for that funding, and the results are being felt. Crime 
rates are coming down as police departments are adding or 
retaining officers and again implementing new initiatives as we 
go into this new decade.
    Even with this help, though, many police departments and 
criminal justice systems remain short on resources. We know 
that money alone does not solve the problem. You have to find 
innovative ways to work together to solve it.
    So we are going to hear from leaders in the field who have 
set good examples for how our communities can make their law 
enforcement and crime reduction efforts work well. Chief Mike 
Schirling from Burlington, Vermont, has brought significant 
innovation to a small city police force. I am well aware of 
Burlington. My main office when I was a prosecutor was there in 
Burlington. I have seen the changes that have taken place over 
the last three decades. Chief Schirling has implemented 
comprehensive community policing and partnerships with all 
levels of law enforcement and also with schools and community 
groups. He is exploring the use of alternative sanctions to set 
low-level offenders on the right path before they enter the 
criminal justice system. He has targeted programs to address 
mental health needs. He has consolidated resources to help 
police departments function more efficiently, and he has pretty 
much led our State in the use of new technology to share 
information more effectively.
    Chief Rodney Monroe has made great progress in Richmond and 
now Charlotte with initiatives like using technology to 
pinpoint law enforcement efforts and integrating law 
enforcement with economic development and job training.
    Colonel Dean Esserman has made Providence into a national 
leader in community-based policing.
    Chief Patrick Berarducci has also brought innovation to a 
small city police force.
    Now, these are good examples from across the country. 
Cities like Los Angeles and Chicago are seeing results with 
gang outreach and mediation initiatives. Thinkers on crime 
reduction strategy like Jeremy Travis and David Kennedy with 
the National Network for Safe Communities have helped 
communities effectively tackle what have been intractable crime 
problems. The HOPE program in Hawaii has shown that probation 
supervision with swift and certain consequences--let me 
emphasize that from my own experience--swift and certain 
consequences can greatly reduce recidivism.
    Today's witnesses come from communities that look very much 
like all of America. They have proven these approaches can 
work.
    I believe that the Federal Government can help. We have 
seen in Burlington in my own State and many other cities that 
an initial Federal investment can make possible initiatives 
that might not have otherwise been possible. These programs are 
inexpensive and cost-effective. I have to think that, over 
time, they pay for themselves. Certainly for those who had 
worried about crime before and now do not worry about it, they 
feel it pays off.
    Senator Sessions.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman. This is a good 
panel of people who have actually worked in the field over a 
number of years and who I think can share some very valuable 
insights with us.
    I would say one thing I have learned throughout my career 
in law enforcement is that we must begin to see law enforcement 
as a unified whole, an enterprise in which there are a number 
of component parts that work together to make our people safer 
and reduce the threat of crime, to ensure that people who 
deserve punishment are punished in an effective and appropriate 
way.
    I believe you are correct, Mr. Chairman, that swiftness and 
certainty is critical to law enforcement in terms of 
punishment. I also believe that sometimes that is more 
important than precisely how long they might serve. I would 
rather have people serve a little less time, frankly, if the 
case were processed promptly and efficiently, and I think you 
would achieve something close to the same deterrent effect. But 
I have difficulty in that crime arises from the multiplicity of 
jurisdictions that are involved in it.
    First, we have to recognize, as this panel indicates, that 
the State and local law enforcement officers represent 
overwhelmingly--Federal people are not close in the amount of 
resources and personnel committed to it. Probably 90 percent of 
law enforcement is State and local. And what is it composed of? 
I see chiefs of police here. You have got the chiefs of police 
and police departments that are hired and funded by the city. 
Most areas or virtually every area have sheriffs. They are 
elected by the county and get their funding through, I guess, 
mostly, in Alabama, the county commission or what other fees 
and all that they charge.
    Then you have got the district attorneys. In Alabama, 
district attorneys are primarily paid by the State of Alabama 
even though they prosecute cases in the counties.
    And then we must not forget things like the forensic 
science departments which support you in so many ways and in 
many cases a bottleneck in that police officers go out and make 
a good case but nobody can give them the chemist's report to 
say the powder is cocaine or the fingerprint report or the 
ballistic report that could help bring the case to indictment, 
all of which delay the system.
    Then we must not forget the judges. How much money do we 
spend on judges? How much money do we spend on probation 
officers, usually funded by the State? And they do background 
work on helping to determine what the right sentence should be 
as well as supervising people on release, and they answer, in 
Alabama, to the State.
    So I guess what I would say is nobody is in charge of the 
system. It is just nobody is in charge of it, and we need to 
figure ways to work more cooperatively and effectively as a 
team. And when we do resources, we need to analyze what area in 
this system is in most need of resources and what institutions 
in the system could benefit the most from that and what 
precisely should additional resources go for. It may not be 
more policemen. It might be. It may not be, the shortage that 
you need.
    I have seen in Alabama incredible shortages in the DA's 
office so that cases are made by huge numbers, and they are not 
properly being disposed of because there are not sufficient 
prosecutors. And then you have got some areas where you do not 
have jail space for people that need to be in jail.
    I would note as an undeniable fact that not a lot of people 
are murderers, robbers, and rapists. And to the extent to which 
those are identified early and detained and jailed, you will 
make the streets safer. It is a mathematical fact. And I am not 
too worried about increased jail population if crime is going 
down. I think that is an argument for incarceration, frankly. 
But we do not need to have anybody in jail any longer than it 
makes sense for them to be there, and good research can help us 
to determine that.
    So I look forward to hearing from this panel. I think it is 
a good group, and we need to make sure that we are spending our 
money wisely, and we look forward to hearing your ideas for 
that.
    Chairman Leahy. Thank you very much.
    One of the reasons why Senator Sessions, Senator 
Whitehouse, and I work very closely together on a lot of these 
things, we have each had a chance to serve in various levels of 
law enforcement.
    I mentioned Michael Schirling is here. He has been the 
chief of the Burlington Police Department since January 2008. 
Previously he ran the department's Administrative Services 
Bureau, including emergency management and homeland security, 
the Detective Services Bureau, Training and Recruitment, and he 
started off as a uniformed officer in 1993. He helped found the 
Vermont Internet Crimes Against Children Task Force, and he has 
continued as the coordinator of that task force ever since.
    I would like to think there is no need for such a task 
force. Unfortunately, the reality is there is, and it has 
served Vermont well.
    He has been a State leader in computer forensics, was a co-
founder of the Digital Forensic Technology Program at Champlain 
College in Burlington. He received his bachelor's degree in 
political science and his master's in leadership and policy 
development from the University of Vermont.
    Chief Schirling, please go ahead, sir.

STATEMENT OF MICHAEL E. SCHIRLING, CHIEF OF POLICE, BURLINGTON 
             POLICE DEPARTMENT, BURLINGTON, VERMONT

    Chief Schirling. Good afternoon. I appreciate the 
opportunity to be with you here again and to discuss the 
challenges currently confronting small cities and U.S. law 
enforcement and how innovative and cost-effective strategies 
could benefit public safety and the Government bottom line. I 
agree with you, Senator Sessions, that encouraging best 
practices and resource utilization is a key factor for us, and 
it may not be for all municipalities necessarily increasing the 
number of law enforcement officers on the street. I am actually 
going to talk about other issues today.
    By way of background, Burlington is a community of 
approximately 40,000, located on the eastern shores of Lake 
Champlain about 35 miles south of the Canadian border. It is 
the central hub of activity and commerce for northwestern 
Vermont, which encompasses a population of about 150,000. So we 
are a rural law enforcement agency that has a little bit of 
city atmosphere to it.
    We believe that critical law enforcement innovation can 
occur not just in traditional policing endeavors but also in 
other areas. Beyond traditional law enforcement, increasingly, 
law enforcement, together with the communities they serve, must 
focus on education and prevention as well as outreach and 
intervention to stem the tide of crime by reaching youth and 
the disenfranchised at a neighborhood level.
    We have faced a variety of challenges in our area over the 
course of the last few years, and they range from recruitment 
and retention of qualified police candidates to shifts in 
violent crime from urban areas, challenges posed by computer 
and Internet crime, and diminishing resources to support 
offender reentry, among others.
    Responses to those challenges I believe must be crafted 
using creative, collaborative approaches--as this hearing's 
title clearly states--innovative, cost-effective law 
enforcement strategies. And while there are literally dozens of 
things we could talk about, I have chosen a few that are sort 
of snippets or cross-sections of alternatives that we could 
embrace. Clearly, alternatives will differ in various regions 
of the country.
    To begin with, integrated justice system models that take 
into account the idea that investing early on in changing the 
path of an individual away from entering the justice system are 
often going to be more cost-effective than prosecuting them if 
we fail. So education and prevention initiatives, and then 
outreach and intervention types of programs like pre-arrest 
diversion, municipal tickets, community justice centers, 
traditional court diversion--all could provide swift, 
meaningful, community-based alternatives to the traditional 
justice system potential at a lower cost.
    Second, the consolidation of services and regionalization. 
As outlined to some extent in the introductions, the idea that 
we can consolidate some of our operations is one that I think 
is important to take a hard look at. We have been talking in 
Chittenden County in Vermont for over 40 years about 
consolidating the 13 law enforcement agencies in one realm or 
another, whether it is information technology, communications 
infrastructure, or simply consolidating all of the departments 
into one. That conversation has been going on for years. Yet 
there is nothing to entice local governments to take the 
initial steps into that consolidation arena. There is nothing 
to break the surface tension to get those kinds of program 
moving and begin implementation of the best concepts that could 
potentially result in enhanced operations and long-term cost 
savings.
    One of the areas of potential innovation is in information 
technology and the consolidation of information technology 
infrastructures. There is extensive duplication of effort in 
core office technology, e-mail, and computer-aided dispatch and 
records management systems that contemporary technologies--
increases in bandwidth and the ability to network multiple 
departments together--could achieve significant savings. 
Creating regional IT centers that host information technology 
infrastructure for multiple agencies could leverage technology 
to enhance information sharing and open doors to better 
services.
    Among the other items that are outlined in my written 
testimony, the idea that unified strategies for offender 
housing could be a viable alternative; instead of duplicating 
facilities and trying to provide robust services to offenders 
that are either housed in facilities or reentering society, 
meshing those things together under one roof to provide sort of 
all of the necessary tools at a potentially lower cost rather 
than running, as we do in Vermont, multiple decentralized 
facilities at significant cost.
    So all of these things potentially have merit as ways to 
encourage innovation, potentially decrease costs, and there are 
a variety of others that could potentially be embraced.
    So, in closing, I would like to thank you, Mr. Chairman and 
distinguished Senators, for taking the testimony on this 
important set of issues and for your continued leadership and 
assistance to law enforcement matters nationwide.
    [The prepared statement of Chief Schirling appears as a 
submission for the record.]
    Chairman Leahy. Thank you, Chief.
    I was sort of sitting here thinking, and I whispered this 
to a couple of the others just now. I wish we had time to take 
the Committee out of here and go to some of these departments, 
whether it is Alabama or Vermont or anywhere else, and see some 
of the things that are happening.
    As I said, Rodney Monroe, is the chief of the Charlotte--
and I have difficulty saying ``Char-lot'', Chief, because in 
Vermont we have a ``Char-lot '' and it is pronounced--it is 
spelled the same, obviously pronounced differently. But it was 
an example in a campaign by somebody who moved into the State 
to run for an office and was asked by his opponent--he was 
saying how well he knew Vermont, and the opponent gave him a 
list of ten names of Vermont municipalities, asked if he would 
just read them, and he mispronounced eight of the ten. That was 
one.
    But he is the chief of the Charlotte-Mecklenburg Police 
Department. He has led the largest municipal police department 
in the State of North Carolina since June of 2008. Before that, 
he was chief of another very large police department, Richmond, 
Virginia. His work resulted in the lowest number of homicides 
in more than a quarter century.
    I might say parenthetically my son-in-law was born and 
raised in Richmond, Virginia.
    Partly as a result of Chief Monroe's community-based 
policing initiatives, Richmond's crime rate decreased by around 
10 percent in his 3-year tenure there. He began his career 
working for 21 years for the Metropolitan Police Department 
here in Washington, rising to the rank of Assistant Chief of 
Police. He received his bachelor's from Virginia Commonwealth 
University and has graduated from the FBI's National Academy 
and the National Executive Institute.
    Chief, please go ahead.

    STATEMENT OF RODNEY MONROE, CHIEF OF POLICE, CHARLOTTE-
    MECKLENBURG POLICE DEPARTMENT, CHARLOTTE, NORTH CAROLINA

    Chief Monroe. Thank you and good afternoon, Senators. As 
chief of the Charlotte-Mecklenburg Police Department, it is an 
honor to have the opportunity to discuss the tremendous 
progress that can be achieved by partnering and collaborating 
with other law enforcement agencies to leverage resources and 
strategic efforts in order to implement a comprehensive and 
cost-effective approach to reduction of crime.
    In today's police environment, law enforcement 
professionals have an ongoing responsibility to identify 
strategies that are both efficient and effective in addressing 
crime and disorder within the communities we serve.
    As an agency, the Charlotte-Mecklenburg Police Department 
has made it one of its highest priorities to maximize these 
relationships in order to enhance our capabilities and use of 
resources to fight crime. Moreover, experience has proven to me 
that crime is most effectively prevented and reduced through a 
multi-agency approach that encompasses a broad array of 
resources, skills, and expertise.
    In particular, when focusing upon violent crimes and the 
offenders responsible for committing these crimes, our agency 
and the community as a whole receive great benefits when we 
formally organize our Federal, State, and local partners to 
share in that responsibility.
    For the purpose of this discussion, I will provide examples 
of experience that has allowed us to see these labors bear 
fruit for our cities.
    In my former role as Richmond Police Chief, as a result of 
the efforts to bring law enforcement agencies together, I led 
the coordination to establish the Comprehensive Violence 
Reduction Partnership to coordinate the prevention, deterrence, 
intervention, and the accountability of all of our policing 
efforts. The centerpiece of the CVRP was to coordinate those 
local, State, and Federal law enforcement to include FBI, ATF, 
DEA, Marshals Service, U.S. Attorneys, and others with the 
focus of sharing intelligence and strategically looking at 
various areas within the city that needed our attention.
    The FBI, under their Safe Streets initiative, was 
responsible for identifying the most prolific gangs in our 
city. ATF, under their Violent Crime Interdiction Teams, 
addressed the top two violent neighborhoods. DEA, under their 
Drug Task Force, focused on our major open-air drug markets.
    Other agencies' resources and expertise were also utilized. 
The U.S. Marshals hunted down our fugitives; Probation focused 
on conducting home visits of our probationers; the Sheriff's 
Department helped identify gang members through their jail 
intelligence network. Our U.S. Attorney's Offices monitored and 
prosecuted firearm, drug, and conspiracy cases.
    To sustain and continuously assess the effectiveness of 
this strategy, we made the point to meet every 45 days to make 
sure that we were achieving our stated goals.
    I am proud to report that we experienced great success in 
realizing significant crime reductions in Richmond. In 2007 and 
2008, Richmond experienced the lowest number homicides in over 
30 years--from an average of 100 to a low of 35.
    One particular element of the partnership was our ``Call 
In'' program. Under this program, we identified approximately 
20 offenders that were called into Federal court before a 
Federal judge.
    In the presence of the heads of the partnering agencies--
FBI, DEA, and others--under the direction of the Department of 
Probation, it was made clear to these offenders that we, as a 
group, were watching them and their associates very closely to 
determine the level of criminal activity. And, further, we told 
them that we were going to use our combined resources to 
investigate and prosecute all of their crimes.
    In addition, they were shown pictures of their associates 
and the amount of prison time that they received for their 
crimes. We had victims come before them to give personal 
accounts of the impact of the crimes upon them and their 
communities.
    But, in addition to that, we offered them an opportunity to 
do the right thing, to refrain from engaging in criminal 
activity with a different approach. In those cases, offenders 
received services to support them in their efforts to 
rehabilitate and to change their lives. Those services included 
GED training, job training, substance abuse counseling, 
assistance in exiting gang life, and helping them to reunite 
with their families.
    As law enforcement professionals, we understand that our 
primary role must always focus on crime reduction and making 
sure criminals are held accountable for their activities and 
the negative impacts on our communities. But we also understand 
that there is a greater role for our agencies to play when we 
work together to be effective in reducing crime and that 
criminal activity.
    So, with that, we understand that other organizations that 
can work with offenders but also need the support of law 
enforcement need to be our partners also. Sometimes we can see 
even greater results in reaching out to these other partners 
than we can in bearing the load by ourselves.
    I thank you for the opportunity to bring forth these ideas 
and strategies, and I hope that they will find root not only 
here in Charlotte but in other cities across America. Thank 
you.
    [The prepared statement of Chief Monroe appears as a 
submission for the record.]
    Senator Whitehouse. [Presiding.] Thank you, Chief Monroe.
    As you will notice, the Chairman has stepped out. We have 
two votes on right now, and he has gone to vote the first time. 
Then when he comes back, I will go out and vote the first and 
second votes, then come back and relieve him. So if you see us 
getting up and down, that is the reason.
    I am very proud now to have the chance to introduce Colonel 
Dean Esserman, who is the chief of police for our capital city, 
Providence, Rhode Island. Colonel Esserman is truly one of our 
most valued public servants in Rhode Island. He did not follow 
a traditional path to his job. He graduated from Dartmouth 
College and NYU Law School, served as an ADA in Brooklyn, and 
is general counsel to the New York Transit Police. There he ran 
across William Bratton, who is one of our Nation's most 
innovative police chiefs, and from there he became assistant 
police chief in New Haven, chief of police for the MTA Metro 
North Police Department, and chief of police in Stamford, 
Connecticut, before he ultimately came to Providence.
    Our Providence Police Department has been transformed under 
the leadership of Colonel Esserman and his very impressive 
command team. Since arriving in 2003, Colonel Esserman has 
implemented key programs to decentralized the department and 
place greater focus on community policing. He is a leader on 
reentry of incarcerated persons into our communities and a key 
supporter of the innovative Providence Street Workers Program. 
He has established new community substation offices, encouraged 
police officers to interact more directly with citizens out in 
the highest-risk parts of our city, and partnered with local 
nonprofit organizations to help turnaround distressed 
neighborhoods.
    Hardly a week goes by that the local newspapers do not 
report on successful programs developed with the Providence 
Police Department. This is in addition to an array of 
institutional reforms within the department which are not 
relevant to today's hearing, but have made a vastly improved 
police department. We in Rhode Island are very fortunate that 
Colonel Esserman accepted a position in our capital city 7 
years ago. It is a testament to his skill and innovation that 
he has been called upon to testify before this Committee and a 
tribute to the selfless dedication of the officers of the 
Providence Police Department that that department now serves as 
an example for other police forces across the Nation.
    I want to add just a particular personal word for that 
command team. The men and women of that command team are people 
who I have known for many years. Some of them served through 
quite dark days in the Providence Police Department. But they 
kept their honor, they kept their hope, and when the day came 
that new leadership was there, they have flourished and 
assisted in leading their department to brighter days. It is a 
truly inspiring human story of honor through difficulty and 
redemption through leadership.
    So, Colonel Esserman, I am delighted to have you here.

    STATEMENT OF COLONEL DEAN M. ESSERMAN, CHIEF OF POLICE, 
     PROVIDENCE POLICE DEPARTMENT, PROVIDENCE, RHODE ISLAND

    Colonel Esserman. Thank you for those words about my 
command team. It is good to surround yourself with people who 
are better than you. I have learned to do that.
    Good morning to Senator Whitehouse and Senator Sessions. I 
am grateful for the opportunity to testify before your 
Committee. I sit here in front of you as one of America's 
police chiefs. I have been the chief of police of the city of 
Providence for 7 years. Providence is the capital of Rhode 
Island and the second largest city in New England. The city of 
Providence proper encompasses a very high concentration of our 
metropolitan area's residents living in poverty; we are, in 
fact, one of the poorest cities in the United States for 
children, and for too long we were also a city that saw too 
much violence, especially violence among our young, among our 
children.
    I am very proud to say that the men and women of the 
Providence Police Department who I proudly represent today, 
``Providence's Finest'', have been making a difference turning 
the tide. For more than 7 years, crime has been going down in 
Providence. Led by an energetic and reform-minded mayor, David 
Cicilline, the Providence Police Department has done more than 
transform its strategies and tactics. The department has 
undergone extensive reengineering and has fundamentally changed 
the way it thinks about itself and its work.
    In the past, the department saw itself like many police: 
armed referees who kept an authoritative distance--to the point 
of being almost anonymous--while trying to maintain order in a 
community that was not their own.
    I was recruited by the mayor to change that. In our 
reengineering efforts, we have adopted the lessons learned over 
the past two decades in American policing of what works. First, 
we have embraced and instituted community policing, 
decentralizing the department, and dividing the city into 
neighborhood police districts. Each district has a community-
donated neighborhood substation office and a commander 
accountable to the residents and to the department.
    Second, the management tool adopted by the department to 
oversee our newly decentralized operations is weekly detective 
and command staff meetings driven by timely and accurate 
statistics--often known as the New York City model of Compstat.
    The results speak for themselves. Over the past 7 years, 
crime is down 34 percent. This represents the lowest level in 
more than 30 years. And behind every statistic is a story, and 
behind every number is a name. Thousands of less victims in the 
city of Providence. And just as importantly, there is a strong 
and growing sense of trust and partnership between the 
community and their police department. When we form community 
partnerships, we are not just meeting, we are not just 
visiting. We are now staying.
    I like to tell this story so that we do not abandon what 
works but, rather, build on it as we seek out new and 
additional and innovative, cost-effective crime reduction 
strategies for the future.
    It is in these tough economic times that our city, like so 
many communities across our country, have been severely tested. 
These times cause us to seek out the most cost-effective crime 
reduction strategies and invest in what we know makes a 
difference. And so I am here to tell you today that cops count, 
that your investment in local policing has made a difference, 
that the framework of community policing works. America's 
police no longer work alone, nor need they.
    In partnership with the United States Justice Department, 
whether conducting research or understanding best practices 
through the different arms of the Office of Justice Programs, 
such as the remarkable NIJ, BJA, or OJJP, or the newly 
refurbished COPS office, or targeting offenders through the 
local United States Attorney; whether in partnership with LISC, 
the Local Initiative Support Corporation, to transform 
distressed neighborhoods into vibrant and healthy places to 
work, and building our way out of crime; whether in partnership 
with the Institute for the Study and Practice of Nonviolence, 
pursuing an initiative first born in Boston in the 1990's, of 
working with former street gang members to intervene in 
violence and teach peace; whether in partnership with the 
Family Services of Rhode Island to replicate and enhance the 
community policing-child development program of police and 
mental health clinicians first pioneered by the Yale Child 
Study Center in New Haven, Connecticut, in 1992; or whether in 
partnership with the Department of Probation and Parole in the 
State of Rhode Island; and, finally, in 2006, with the National 
and Rhode Island Urban Leagues who approached this department 
about an idea from Professor David Kennedy at John Jay College. 
I am a charter member of the executive board of the National 
Network for Safe Communities created by John Jay College and 
David Kennedy. It has been brought to Providence, and it has 
worked.
    All I mentioned, these many initiatives, and others, were 
born from federally sponsored research and started with Federal 
grant funds from the National Institute of Justice, the Bureau 
of Justice Assistance, the COPS office, or Project Safe 
Neighborhoods, and Edward Byrne Memorial grant assistance, they 
were innovative then and they are innovative now.
    These investments directed by Congress in local policing 
make a difference. They bring dollars back to the neighborhoods 
of our many communities and to those who work and live in them. 
They save communities money, and they save Government money.
    And so the future of innovative and cost-effective crime 
reduction strategies must be focused on the twin pillars of 
prevention and partnership with the community, as my colleagues 
before me have just said. The investment in children, families, 
and neighborhoods impacts crime and violence. It is cost-
effective, it is well researched, and it is right.
    And so an increased investment in technology, as is often 
raised in today's environment, would only be a step in the 
right direction, so long as the investment in technology does 
not replace the workers in the field but supports and augments 
them. The working officer on the street is the face of 
America's police departments. The working officer is the face 
of the working partnerships with our community-based agencies. 
The technology that can be developed to enhance ever more 
timely and accurate information, whether reactive or 
predictive, must be delivered to the officers on our beats. 
Only if it is relevant and helpful in the day-to-day work of 
America's front line police officers will it make the 
difference.
    And one example is the BlackBerry I hold in front of me 
which, with Federal money that came from this Congress, is now 
called the ``pocket cop'', which is in the hand of every police 
supervisor in the city of Providence, and in the future, the 
near future, will be in the hands of every police officer in 
Providence.
    Thank you.
    [The prepared statement of Colonel Esserman appears as a 
submission for the record.]
    Chairman Leahy. [Presiding.] Thank you. I might note that 
even the President carries one of those.
    You may have noticed, Colonel, it was not because of 
something you said that Senator Whitehouse left or Senator 
Sessions. Those lights on the clock behind you indicate we have 
been having a series of votes, and we have been doing tag team. 
We actually have to have at least part of you on the floor of 
the Senate physically to vote. That can sometimes raise 
interesting things. I once had an unexpected vote, was out 
playing----
    Colonel Esserman. You are kind to allay my concerns.
    Chairman Leahy. I was out playing softball with my office 
team, and I arrived in shorts, a T-shirt, and sneakers, and I 
never had the courage to do that again.
    Chief Patrick Berarducci has been the chief of police in 
Medina, Ohio, since August 2009. Prior to joining the Medina 
police force, he served as the chief of Police in Boardman, 
Ohio, and as an agent with the Bureau of Alcohol, Tobacco, 
Firearms, and Explosives. During his time with the ATF, he was 
highly decorated, received the Treasury Department's Medal of 
Valor and at least 11 other service and achievement awards. He 
worked extensively in the South Florida Violent Crime Task 
Force and the Caribbean Gang Task Force, which had to be an 
education in and of itself, where he led investigations 
covering a wide range of major crimes.
    Chief Berarducci, please go ahead, sir.

  STATEMENT OF PATRICK J. BERARDUCCI, CHIEF OF POLICE, MEDINA 
                POLICE DEPARTMENT, MEDINA, OHIO

    Chief Berarducci. Thank you, Mr. Chairman.
    Chairman Leahy. Incidentally, everybody's full statement 
will be made part of the record.
    Chief Berarducci. Thank you, Mr. Chairman. It may surprise 
you, looking at me, I know I do not look that old, but I am in 
my 37th year of law enforcement, and so I am proud to be here 
before you. I have been a fan for a lot of years. Thank you.
    Chairman Leahy. Thank you. Some of us are entering our 36th 
year in the Senate, and we do look older.
    [Laughter.]
    Chairman Leahy. Go ahead.
    Chief Berarducci. Thank you very much. Do I still have to 
count that time, sir?
    Chairman Leahy. No. No.
    Chief Berarducci. The city of Medina is 12.5 square miles, 
and we have a population of about 26,000 people. Eight years 
ago, the city of Medina was nearly bankrupt. We had to lay off 
police officers. We had to lay off city employees. Our bond 
rating was terrible. We had our battles with drugs and violence 
and disorder. But today, thanks to strong leadership, we have 
turned that around.
    Medina was recently ranked 40th on the list of America's 
best small towns by Money Magazine. The ranking was no surprise 
to people of Medina. We have always known it was a great place 
to live and work and raise a family.
    The architect of the community policing program in Medina 
was then Police Chief Dennis Hanwell, who served for 13 years. 
He is now the new mayor in Medina, and my boss, so I think it 
is important that I mention that he set up this whole community 
policing thing. He instilled the philosophy of ``broken 
windows'' in our community, and in our community we adhere to 
the community-oriented government model also. So, basically, we 
are doing the same as all of the other chiefs have related to 
you today. We may call it something different, but it is the 
same basic type of policing.
    One of the most important reasons for our success is our 5-
year budget and the stability that it provides us. I already 
know what my budget is going to be in 2014, and I can plan 
accordingly. Every decision to hire, purchase, innovate, or 
participate is weighed against the effect on our budget. When 
cuts need to be made, we know well in advance and we can plan 
for them.
    I would suggest our 5-year budget operates like a ``broken 
windows'' program for government by establishing minimal levels 
of order in our finances and maintaining the stability with the 
5-year budget. As a result, our community is stable, and I am 
convinced it is an important key to our success.
    As Colonel Esserman said, you know, our most important 
asset are our officers on the street, and I take very 
personally the responsibility to keep them from being laid off, 
to keep them working, and to keep them safe. I think this 5-
year budget gives me those tools.
    One of the things we did in 2009, we were looking for ways 
to engage the community, and the answer came from a young 
patrol officer named Sara Lynn, and her suggestion was to use 
Facebook to capture fugitives. And I have to confess, Senator, 
I did not even know what Facebook was when she brought it to my 
attention.
    We began quietly putting the fugitives' photographs on 
there, and we did not really even publicize it, but it caught 
on in our community. And today we have gotten well over 2,400 
people who are listed as fans and follow us on a daily basis. 
We have arrested several of our fugitives, and we have other 
fugitives who turn themselves in rather than have their photo 
and their name placed on the page. So, you know, we really are 
getting a nice extra bounce out of Facebook.
    The beautiful part about it for me as the chief is that 
when I have 2,400 people listening to what we say, we can then 
impart our different philosophies, tell them about our 
programs. We have an autism seminar coming on to teach law 
enforcement how to deal with the autistic and their special 
needs. We have people enrolling from all over the community 
based off of seeing that on Facebook. So in a small town, it 
gives us access to our community that we would not even 
normally have in our local newspaper.
    Chairman Leahy. And what is the population of Medina?
    Chief Berarducci. The population is just over 26,000.
    Chairman Leahy. Thank you.
    Chief Berarducci. We also use the services of A Child Is 
Missing, which is a nonprofit organization in Fort Lauderdale, 
and it is dedicated to helping law enforcement find missing 
children, the elderly, people with Alzheimer's.
    We made one call to A Child Is Missing, and they sent out 
an alert to 4,000 people in a geographic area in our community 
when we had a missing child. We found that child as a direct 
result of that call and the calls that came in to us because of 
it. There is no charge to law enforcement. I think it is a 
great tool.
    The other thing that we are doing is trying to use the 
things that we have more efficiently. We shut down our city 
jail, and we now take our prisoners to the county jail. That 
lets me alleviate the liability and the costs of running a 40-
year-old jail and take advantage of a jail operation that is an 
accredited operation just a mile down the road from us. It 
saves us all a lot of money.
    We do centralized dispatching for several communities out 
of our dispatch center, and the revenue that comes in from that 
helps us keep updated on our software and our equipment needs.
    The last suggestion I have here for you today, Senator, we 
have over 400,000 police officers in the United States. They 
are trained, they are certified, they qualify on a regular 
basis, and yet every day there are officers getting on flights 
anywhere in this country who are off duty, and so they are not 
allowed to carry their firearms. Those firearms have to be 
stored in the luggage hold or not even taken on the flight. It 
just seems like such a waste to take 400,000 trained officers 
at a time when people are begging you for more money to protect 
our skies and make them sit in the coach section unarmed and 
have no effect on an outcome. So I would encourage you to look 
very seriously at that issue and look at the potential cost 
savings involved with that.
    Thank you very much. I am sorry I ran over.
    [The prepared statement of Chief Berarducci appears as a 
submission for the record.]
    Chairman Leahy. I apologize for--the day started off early. 
I apologize for especially mispronouncing Medina, especially 
after I had talked with Chief Monroe about ``Char-lot'' and 
``Char-lot''. And I should note my staff had it written 
phonetically correctly in my notes. You have to understand, 
Chief, that Senators are merely constitutional impediments to 
their staff.
    [Laughter.]
    Chairman Leahy. So often we totally screw up. You probably 
have never heard that from your officers about the chief.
    Chief Berarducci. I have not heard that.
    Chairman Leahy. You might not have.
    [Laughter.]
    Chairman Leahy. But thank you.
    Dr. Muhlhausen is here. David Muhlhausen is a senior policy 
analyst at the Heritage Foundation's Center for Data Analysis. 
He has testified before Congress on several previous occasions 
about law enforcement grant programs, particularly the COPS 
program. We sometimes agree and we sometimes disagree, but I 
want to say on a personal note, Doctor, I do appreciate you 
being willing to take the time to come here and testify any 
time we have asked you to, and I realize you have a pretty 
intense schedule, and I appreciate your taking that time. And I 
also apologize to you, as I did to the others, that we had to 
change things around today.
    Dr. Muhlhausen received his Ph.D. in public policy from the 
University of Maryland Baltimore County and his bachelor's 
degree in political science and justice study from Frostburg 
State University, and he is currently an adjunct professor of 
public policy at George Mason University.
    Please go ahead, sir.

STATEMENT OF DAVID B. MUHLHAUSEN, PH.D., SENIOR POLICY ANALYST, 
CENTER FOR DATA ANALYSIS, THE HERITAGE FOUNDATION, WASHINGTON, 
                              D.C.

    Mr. Muhlhausen. Thank you for your kind words. My name is 
David Muhlhausen. I am a senior policy analyst in the Center 
for Data Analysis at the Heritage Foundation. I thank Chairman 
Patrick Leahy, Ranking Member Jeff Sessions, and the rest of 
the Committee for the opportunity to testify today on 
innovative crime reduction strategies.
    The views I express in this testimony are my own and should 
not be construed as representing any official position of the 
Heritage Foundation.
    This morning I want to lay out the case that innovative 
policing strategies and the leveraging of law enforcement 
assets can significantly reduce crime, but first I must caution 
Congress against further Federal funding for the routine 
activities of State and local law enforcement. The 
Congressional Budget Office recently warned Congress, again, 
that Federal spending in an unsustainable course. The national 
debt is set to reach 67 percent of GDP by the end of fiscal 
year 2010.
    While the debt is driven largely by entitlement spending, 
Congress' funding of routine law enforcement activities and all 
the other programs Congress just cannot say no to only moves 
the Nation closer to fiscal insolvency. Given that public 
safety from ordinary street crime is almost exclusively the 
responsibility of State and local governments, and in light of 
the severe burden of the Federal Government's debt, State and 
local governments need to be weaned off their dependence on 
Federal funding for the provision of basic law enforcement. 
Simply put, it is not a Federal responsibility to pay police 
departments to be police departments.
    Now I would like to discuss innovative policing and 
leveraging strategies that communities across the Nation should 
consider adopting. Innovative strategies such as problem-
oriented policing, ``hot spots'' policing, and focusing on 
repeat offenders can effectively reduce crime. Unlike broader 
strategies that concentrate on community relations, these three 
approaches share a common focus of targeting high-risk 
locations and repeat offenders.
    In particular, problem-oriented policing is a systematic 
process used by the police for inquiring into the nature of 
problems and then developing specific tactics to address these 
problems. During the 1990s, the Jersey City Police Department 
implementing a problem-oriented policing strategy that included 
aggressive order maintenance. An experimental evaluation funded 
by the Department of Justice found that the strategy was 
effective at reducing crime.
    In addition to innovative policing strategies, local law 
enforcement, through leveraging assets with other criminal 
justice agencies, can develop effective strategies that have 
greater potential for reducing crime than if they acted alone.
    While I discuss the pulling levers approach in my written 
testimony, I would like to take this time to focus on 
immigration enforcement partnerships under Section 287(g) of 
the Immigration and Nationality Act.
    Section 287(g) acts a force multiplier for the Immigration 
and Customs Enforcement agency. This provision allows State and 
local agencies to assist in the process of identifying, 
detaining, removing from the country illegal aliens arrested 
for crimes. Before the implementation of Section 287(g), ICE 
frequently failed to take custody of the individual, thus 
setting in motion the individual's release. This inaction meant 
that the Federal immigration law was unenforced.
    Based on 25 participants in the program, a General 
Accountability Office report found that ICE detained 
approximately 34,000 illegal aliens, put about 14,000 in 
removal proceedings, and assembled about 15,000 to be 
voluntarily deported. Congress should support the expansion of 
this program.
    While State and local law enforcement resources wax and 
wane as the priorities of State and local officials change, 
States and localities have fully within their powers the 
ability to effectively allocate resources to strategies that 
have a proven track record of success. With the national debt 
equaling two-thirds of America's entire economic output, the 
Federal Government can no longer afford to subsidize the 
routine activities of State and local law enforcement. Such 
subsidies fall outside the responsibilities of the Federal 
Government. Under America's system of constitutional 
federalism, State and local law enforcement should never be 
made dependent on the Federal Government.
    Thank you.
    [The prepared statement of Mr. Muhlhausen appears as a 
submission for the record.]
    Chairman Leahy. Well, of course, I have always felt that 
the safety of the public is a shared responsibility of all of 
us. I wish that those who are as concerned about the national 
debt now, something that I am not prepared to blame on law 
enforcement, I wish there has been as much concern expressed 
when this country entered into two wars and for the first time 
in history said we will pay for it with huge tax cuts, the only 
time in our history we have not found a way to pay for wars we 
were in. Perhaps the--well, anyway, I do not blame it on law 
enforcement. In fact, I feel that one of the things that may 
improve the economics of any area is that people feel safe in 
the area and they feel they have good law enforcement. And 
trust me, I will give you plenty of time to respond to that.
    I want to go to Chief Schirling. You talked about the 
justice system integration model, and let me give you a quick 
thumbnail, part of an overall approach to crime reduction, 
including education, community outreach, and use of alternative 
sanctions in low-level cases. Can you tell us a little bit more 
about this? Burlington is sort of the hub of a county which has 
about a quarter of our State's population. Why do you believe 
this is the best approach for Burlington? How do you feel that 
has worked or has not worked?
    Chief Schirling. Certainly. Thank you. We have been 
involved in a variety of pilot projects to date that, in 
partnership with our Community Justice Center, seek to find 
alternative routes for people that are involved in low-level 
crime and disorder. So the concept is that rather than taking 
somebody in their first, second, or third offense retail theft 
or disorderly conduct or some other low-level offense, rather 
than putting them into a justice system that at present, 
candidly, does not deliver swift or sure sanction--and it is 
widely agreed that that is a critical component to the system 
having any kind of deterrent effect. Rather than doing that, we 
are able to deliver a much quicker, more sure community-based 
restorative process in hopes of not allowing that person--or 
guiding that person for their behavior not to deteriorate 
further into more substantial crime.
    The idea is that you bring together a variety of potential 
sanctions ranging from civil and municipal tickets to time with 
restorative panels that are made up of community members and 
victims of crime and educate the person to the impact of their 
actions and then give them some kind of alternative sanction or 
community service, restitution for damaged property or stolen 
property, things along those lines. And the idea is that if you 
can change their path through those low-level alternative 
sanctions, hopefully they will not enter the justice system, 
which is much more costly and potentially less effective for 
those low-level offenses.
    Now, clearly those things do not work relative to high-
level felonies and violent crime, but we have had some success 
in turning people away from the traditional justice system by 
investing in those low-level, community-based approaches.
    Chairman Leahy. If you were to commit an armed robbery or 
something like that, you would go through the regular judicial 
system.
    Chief Schirling. Correct. Part of the concept is that you 
reserve----
    Chairman Leahy. If it was vandalism or something like that, 
you might go to the other.
    Chief Schirling. Correct. In Vermont, we suffer from a lack 
of capacity. The police can arrest more people than can be 
prosecuted. The prosecutors can convict more people than can be 
incarcerated. It is a problem that exists in many places in the 
country. So you have to have some alternative models. They have 
to be swift and sure to be effective. They do not necessarily 
have to be severe, but they have to be meaningful.
    Chairman Leahy. Thank you.
    Chief Monroe, you have used various technology to try to 
make sure you are doing the best possible use of law 
enforcement. It is a little bit different than the days when 
some of us first started in law enforcement. Can you tell us 
some of the examples of how you have used technology?
    Chief Monroe. Well, one of the things that I think all law 
enforcement needs is the ability to be able to target its 
resources in a sure and certain manner with information that is 
both accurate and timely. And what we embarked upon both in 
Richmond and now here in Charlotte is predictive analytics 
where we take a host of different data sources, whether it is 
arrest data, crime data, call for service data, even weather, 
and put it into a model whereby we can refresh it every 2 hours 
to start looking at where do we think the most likelihood of 
crime to occur is, certain types of crime, whether it is 
burglaries, robberies, other thefts, and be able to start 
deploying our resources ahead of time.
    Also, rather than having two or three robberies that may be 
committed by the same individual, being notified through the 
system to say that you have had that second robbery, and these 
are the dynamics associated with that robbery, the type of 
locations, the type of victims, the type of suspect information 
and be able to deploy your resources so that you do not see 
that third or fourth robbery in the particular case.
    So predictive analytics serves to allow us to put our 
resources where they need to be based on information that we 
already have at our disposal.
    Chairman Leahy. Thank you.
    Chief Schirling, can you name one or two things that you 
feel is the most effective in the technology you have used?
    Chief Schirling. My colleagues have outlined a variety of 
cutting-edge technologies that are in play now. I think one of 
the things that could potentially be leveraged to a greater 
extent to supplement and enhance what has been described and 
potentially reduce costs is the development of more 
contemporary computer-aided dispatch and records management 
systems that feed data into those predictive analytics systems. 
Right now, law enforcement spends millions of dollars annually 
to purchase and maintain computer-aided dispatch and records 
management systems that are often built on aging technology. 
Technology changes rather quickly.
    In addition to that, our prosecutors, our courts, 
corrections, our public defenders all build parallel systems, 
and then we spend money to connect those systems together 
rather than looking at it as one integrated justice information 
system, one scalable record that could exist about an event 
that starts when a dispatcher takes a call in the 911 center 
and ends when potentially someone ends up in a correctional 
facility, one thread of common information that could be fed 
back into giving us robust information about predictive 
analytics and other information.
    Chairman Leahy. And wouldn't it be possible to do that in a 
way to have enough safeguards for the obvious privacy concerns?
    Chief Schirling. Absolutely. Contemporary technology will 
allow you to create silos of access within that integrated 
system to ensure that information only flowed in the directions 
that were applicable.
    Chairman Leahy. Thank you. I am going to turn the gavel 
over to Senator Whitehouse, and I will be back.
    Senator Whitehouse. Thank you, Chairman.
    I wanted to ask a number of questions. First, I wanted to 
ask Chief Monroe, going back to your days in Richmond, I 
remember Richmond as being the birthplace during the Clinton 
administration of the Federal firearms enhanced prosecution 
initiative, that it was that district and the U.S. Attorney 
that began that project, that gave it sort of a name and 
branded it and put in on the sides of buses and all that.
    We did a similar project up in Rhode Island, but it was 
more informally. It did not have a name, and it did not have 
the publicity.
    By the time you became the chief and through your time 
there, you know, some of these programs, they start very well 
and then after time goes by for a while, they begin to lose 
their luster or new programs come along.
    How was the duration of that program in Richmond? And what 
was it like when you were there? Was it still going on? And how 
effective has that been?
    Chief Monroe. We are speaking of Project Exile, and we 
rebirthed Project Exile in Richmond. It was part of our 
comprehensive violence reduction strategy that involved our 
Federal counterparts. And we used that law from two 
perspectives: one, to really go after individuals that were 
illegally possessing handguns that were convicted felons within 
the city, and had them face the Federal system, whereby when 
Senator Leahy talked about swift and certain justice, that is 
what we saw in the Federal system with those gun-related cases, 
and we publicized that information.
    When I spoke about our Call In program, when we called 
individuals in, we spoke about Project Exile and the amount of 
time that individuals were receiving for the mere possession of 
a firearm by a convicted felon, and that served us well in 
reducing the amount of gun violence that we saw in Richmond. 
Our homicides reduced from over 100 a year to an all-time low 
of 35, as well as our shootings, and we primarily attribute a 
great deal of that success to Project Exile.
    Senator Whitehouse. Good. I know that the Clinton 
administration initiative was actually expanded during the Bush 
administration, but I believe Richmond is the place where it 
has the longest track record, so I am delighted to hear your 
experience that it has stood the test of time there.
    Chief Monroe. Yes, it did.
    Senator Whitehouse. Chief Esserman, you mentioned 
specifically your relationship with LISC, the Local Initiative 
Support Corporation. I am aware of some of the activities that 
you have worked with LISC on and some of the successes you have 
seen, but I do not think that the Committee is, and I would 
like to have the record of the Committee reflect some of that 
activity, if you could describe it in a little bit greater 
detail, both as to the nature of the partnership, the nature of 
the activity, and the nature of the success that you found 
through it.
    Colonel Esserman. Thank you, Senator. LISC, the Local 
Initiative Support Corporation, is housed in many communities 
across our Nation, and Rhode Island is one. And it is one of 
the foundational partnerships we have in rebuilding 
neighborhoods, home by home, community development 
corporations, officers working to redesign neighborhoods, 
streets, parks.
    The commanding officer of the poorest neighborhood in the 
State of Rhode Island, Olneyville, who grew up in that 
neighborhood and now commands that neighborhood district, is 
probably the greatest proponent, as he has worked side by side 
with LISC to redesign the neighborhood he grew up in, to 
rebuild the park that you presided over at the reopening of it, 
to hear Professor Herman Goldstein, probably the old sage of 
the new American policing movement of problem-oriented policing 
and community policing, sit there and cheer in the audience as 
he watched that ribbon being cut, designing your way out of 
crime, building your way out of crime.
    It is an unusual partnership that has brought crime down in 
that neighborhood over 75 percent. The neighborhood that was 
the busiest in the city and ate up the most calls for service 
in our large police department is now a department that is 
patrolled alone by an officer who is not rushing from call to 
call. It is one of the partnerships that I believe matters as I 
hear my colleagues who I know speak about better catching, it 
must be coupled with better prevention, and better prevention 
is the business we are in as much as it is better apprehension. 
And LISC or the other partnerships we speak about and that we 
are all involved in is really a story of prevention, just as it 
must be coupled with successful and strong apprehension.
    Senator Whitehouse. I will yield to the distinguished 
Ranking Member, Senator Sessions.
    Senator Sessions. Thank you.
    Colonel Esserman, I know you favor the ``broken windows'' 
policy, the community policing concepts. I remember when those 
began, and they struck me at the time as very effective 
techniques. Based on your experience--I guess I will follow up 
on the Exile-type question--do you think they are proven 
techniques that they should be adopted as good policies 
throughout the country?
    Colonel Esserman. Senator Sessions, I do. I first met 
George Kelling and James Q. Wilson when I read their article on 
the cover of the Atlantic when I was in law school in 1982. 
Several years later, I got to work with them when they brought 
their thinking, through Bill Bratton, to the New York City 
Transit System, a system that was known, that had a reputation 
for disorder, for fear, for lack of safety.
    It was a neighborhood under the streets of New York, a 
neighborhood that I used every day as a child growing up in New 
York to go to school on that subway.
    Compared to what was going on aboveground on the streets of 
New York, where there were more than 2,000 murders a year in 
that day, there were never a dozen murders underground. But 
when you spoke to the people who used that subway system, both 
regular commuters or children like me or shoppers or visitors, 
there is a sense that the most dangerous property in the city 
of New York was a subway that ran underneath, that moved 3.5 
million people every day.
    It turned out that when Chief Bratton had George Kelling in 
and had us start thinking about the environment, the graffiti, 
the dirt, the sense of abandonment, the sense that no one was 
in control of the subway environment so how could you be safe 
in an environment that was lawless, that it did not just cause 
crime, it provoked fear, we started to take advantage of that 
thinking.
    There was a time in New York City when you took the subway 
as an adventure to see graffiti when you were an out-of-town 
visitor. We knew we were doing the right thing when visitors 
were complaining that they could not find graffiti trains 
because we started to focus on the environment. We started to 
focus on the graffiti and the broken glass and the disorderly 
beggars and the garbage overflowing from the pails, and those 
who would jump the fare rather than pay at the token booth, who 
rarely committed any crime but jumping the fare in front of 
people waiting on line.
    The crime decline in New York City, as many know, did not 
start on the streets of New York. The crime decline in New York 
City started on the subways of New York and moved upstairs. And 
the story of what happened in the transit police is the story 
of broken windows to another venue in the subway, so much so 
that my boss, Bill Bratton, was asked back to New York City 
several years later to now do what he did in the New York City 
subways for the streets of New York. And the first person he 
brought with him was George Kelling, who wrote ``Broken 
Windows'', to say let us look at the disorder on the streets of 
New York, that the small things will impact the sense of 
community and environment on the big things, and I believe he 
was proved right.
    Senator Sessions. History shows, I think, that that did 
prove correct. I remember making the speeches, more than one, 
to law enforcement officers in my State on the question of 
drugs. Somehow had gotten in the idea of local police that they 
should only focus on the higher-ups. Do you remember that 
mentality? And I remember contending that if you allow open 
drug sales in your communities on street corners, dismissing 
them because they are small crimes, you are creating a climate 
that is irreversible, that you are going to have big dealers. 
And I think we have learned from that more and more that that 
mentality is being adopted and has made a big difference.
    Project Exile, I am very familiar with that. We did 
something similar to that when I was United States Attorney in 
the 1980's, and it really picked up a number of years later in 
the Richmond program, and violence went down.
    So there is a myth out there--I call it the ``Hill Street 
Blues'' myth--that, oh, it is just a revolving door and we just 
catch them and they get released and they go commit other 
crimes and it is a hopeless thing. But that is not so. 
Neighborhoods are revitalized when the proper application of 
multiple factors occur that really reduces crime.
    Chief Berarducci, you have had a remarkable ability to 
reduce some costs and do some things. I noticed one of the 
things that you did was consolidate your city and county jails. 
I hear that more and more in my State. I do not know about 
other States. Do you think that is a trend that should be 
continued and actually saves money and is more efficient?
    Chief Berarducci. Yes, sir, I absolutely do. There is quite 
a bit of fixed cost in operating a jail just in the physical 
plant, and then when you look at personnel and training and all 
of the other things that go into that equation, it just does 
not make sense to keep duplicating it in the same geographic 
area when you could adequately fund one and service everybody.
    Our sheriff has done a great job with our county jail. It 
is a nationally accredited county jail. And so for me to go a 
mile and a half down the road is just a good use of resources.
    Senator Sessions. I think that is so good, and, Chief 
Schirling, you talked about the different police departments 
and so forth. I think you are correct. Honest discussions--I 
know some departments will not like to hear it--of actual 
consolidation are important. But if you do not actually 
consolidate the departments, there are such things as jails, 
training, forensics, computers, communication technology that 
could be bought in larger quantities, and everybody would have 
the same system. Don't you think--it is difficult for the 
Federal Government to mandate, but it should occur at the local 
level and more and more it should occur?
    Chief Schirling. I do, Senator. And on my wall is a little 
homemade poster that says, ``Small victories to achieve 
momentum.'' The concept is if you do it a piece at a time--if I 
try to get all 13 municipalities and organizations that have 
police departments in Chittenden County to say on January 1, 
2011, we are going to flip the switch, we are going to go from 
13 to 1, it is never going to happen. But if we do small things 
to create the momentum, if you start with information 
technology and then you roll that into communications, then you 
consolidated investigative functions and purchasing, one piece 
at a time over the course of a longer period, you can 
ultimately end up with efficiencies that are tailored to the 
region that you are in. For us, that may mean eventually we 
have one department. That may not. That may mean that we share 
communications and IT and a couple of other things and we keep 
13 departments. It makes it more customizable.
    The role for the Federal Government, in my eyes, is not to 
fully fund those things but to simply dangle a carrot, if you 
will.
    Senator Sessions. Well, what if we took some of the money 
we are spending on things--heaven knows that we would cut a 
dime from the COPS program. But let us say some Federal 
programs that--and we created grant money, and it said if you 
want to make a move toward consolidation, we have a grant that 
will help fund a study of that and maybe some of the 
transition, would that be a decent Federal policy?
    Chief Schirling. I think it would, Senator, for many areas 
of the country. It is just that that would be something that 
would allow us to----
    Senator Sessions. Send in a carrot.
    Chief Schirling. Exactly. It would break the surface 
tension to allow folks to step into that arena a little bit 
further and maybe get some small victories to achieve momentum 
and ultimately, hopefully cost savings.
    Senator Sessions. My time is about up, but do you think 
that that kind of targeted leadership policy, Federal program, 
are more legitimate for the Federal Government than actual 
subsidization of local law enforcement? And do you have any 
suggestions that you would make from the scholarly analysis?
    Mr. Muhlhausen. Well, I think the Federal Government should 
not pay police departments to be police departments. They 
should help out, think of it as a value-added approach, do 
something that the community cannot do themselves. The 
communities should be fully capable of raising their own 
revenue to fund their own programs. But in a sense, taking 
money and helping local law enforcements coordinate across 
jurisdiction is one way that could be a Federal role. But just 
paying a police department to fund its police officers, that 
sets up a cycle of dependency where, as soon as those grants 
disappear, instead of the community picking up the tab for 
those additional officers, they go back to the Federal 
Government and say, ``We are going to lay off these officers 
unless you give us more money.''
    Senator Sessions. I think I agree with that fundamentally. 
One question. I have to go, and I thank my Chairman for his 
indulgence. Immigration has a 287(g) program which 
fundamentally allows the Federal Government to partner with 
local law enforcement. I think there are 12,000 Federal law 
officers and 600,000 or so State officers. And it allows them 
to access those to help be eyes and ears in the local community 
to deal with crimes related to immigration. Do you think that 
is a good policy and is consistent with maximizing productivity 
and would help us get a better handle on the illegal 
immigration in the country?
    Mr. Muhlhausen. Absolutely. It is a way to leverage assets. 
Basically what it does is it is a force multiplier. You have 
ICE, which has around 6,000 agents. They are busy doing 
customs, helping protect other areas. They do not have enough 
manpower to do internal enforcement within the borders of the 
United States. So you partner with local law enforcement, and 
it gives them assistance to where they can get up to speed in 
being able to help enforce immigration law. And you can help in 
some way compensate them for their efforts. But as long as it 
is not paying them to do the normal enforcement duties, I think 
it is a very good program because it multiplies the 
effectiveness of ICE. And what is the point of having, you 
know, immigration law without having some enforcement to 
enforce the law?
    So I think it is a good way to enforce the laws that we 
have on the book.
    Senator Sessions. Thank you. I very much agree.
    Thank you.
    Chairman Leahy. Thank you very much.
    Dr. Muhlhausen, I told you earlier that certainly you would 
have time to respond in any way to anything I had said earlier. 
If you would like to, feel free.
    Mr. Muhlhausen. I appreciate that. Just to be quick, in my 
testimony I admit that our Nation's budgetary problems are 
mainly due to entitlement spending. However, spending on 
programs that are not a unique core function of the Federal 
Government also adds to that debt.
    Now, law enforcement is a very noble profession, but 
everybody considers themselves entitled or in need of Federal 
funding. So we have so many hands in the jar of the Treasury 
that we can never get control of our spending. And so what I 
would could say is we are living beyond our means, and one of 
the ways that we can start to live within our means is for the 
Federal Government to spend taxpayer dollars on things that are 
core functions and not subsidize what used to be the case where 
State and local police departments actually funded their own 
officers instead of relying on the Federal Government.
    Chairman Leahy. Thank you.
    Mr. Muhlhausen. Thank you.
    Chairman Leahy. I am going to put a statement by Senator 
Feingold in the record.
    [The prepared statement of Senator Feingold appears as a 
submission for the record.]
    Chairman Leahy. Chief Monroe, I have other questions. I 
will keep the record open in case others want to ask questions. 
I think every one of us has to be torn apart when we see crime 
by young people. They often do not realize they have got their 
whole life ahead of them. This is not a conservative or a 
liberal issue. You just look at them and you say, ``You have 
got your whole life ahead of you. What are you doing screwing 
it up? ''
    I introduced the Juvenile Justice and Delinquency 
Prevention Act to reduce juvenile crime, to advance programs to 
keep juveniles out of the system, get them back into a track if 
they do break the law, where they can be back in the community. 
And I think of what Chief Schirling said about the alternative 
ways of handling minor crimes.
    What about in your jurisdiction? Have you taken steps to 
reduce crimes committed by children and youngsters?
    Chief Monroe. Well, there are a couple of different 
thoughts with that. In Richmond, we partnered with a couple of 
organizations, the National Center for Neighborhood Enterprise 
and the Richmond Outreach Center, whereby there was a model out 
there that looked at some of our high schools where kids were 
dropping out of school, high truancy rates, high suspension 
rates, crime in and around the school campuses, and whereby we 
went to the private sector in Richmond and were able to raise a 
little over half a million dollars in order to hire outreach 
workers to place into those schools. And those outreach workers 
had a special training that was done, and in many cases, along 
with ex-offenders and former gang members, to really understand 
what some of the problems and challenges that our young people 
were facing in high school.
    Unfortunately, our teachers are struggling not only with 
trying to teach our kids but also trying to maintain a certain 
level of discipline within our schools. These 15 outreach 
workers went into one of the toughest schools in Richmond, 
Virginia, George Wythe, whereby they worked with this high-risk 
population, whereby they became the mentors, they became the 
disciplinarians, they became the ones that really focused on 
their behavior and building upon their life skills, whereby we 
saw significant improvement in the truancy rate, in the 
suspension rate, a 37-percent reduction in crime in and around 
that school campus.
    I think those types of innovative programs are things that 
we have to partner with both the private sector and nonprofit 
organizations that can sometimes bring about greater changes in 
that youth environment than we can in law enforcement or any 
other government agency. But I think we just have to have the 
willingness and the fortitude to support those types of 
initiatives to allow them to work in their own environment.
    So I think that there are enough challenges out there 
involving our young people that we have to look to support 
those organizations that can build the capacity.
    Chairman Leahy. I think I know the answer to this, but in 
the long run, does it save you money?
    Chief Monroe. Yes, it does.
    Chairman Leahy. Colonel Esserman, I think you wanted to add 
something to that, and anybody else who wants to, feel free.
    Colonel Esserman. Senator, I thank you for allowing us to 
speak to this issue, because I go to every shooting in my city 
I go to every emergency room intake, I go to every wake and 
funeral. And in the past 7 years----
    Chairman Leahy. I am glad to hear that. I did the same as 
State's attorney in my jurisdiction. Every single shooting I 
went to, every emergency room, I went to every wake.
    Colonel Esserman. And you see for yourself, Senator, what 
you must have seen for yourself, not the stories that are told 
but what you see. And what I have seen in the past 7 years as 
the chief of Providence is what my officers have seen, that the 
violence is getting younger, and that that is disturbing to any 
American police chief, that is disturbing to any patriot who 
loves his country, a father who loves his children.
    In my city I have lost 200 people to murder since the 
beginning of this century, since the 1st of January 2000--200 
as of a month and a half ago.
    Chairman Leahy. And a population of----
    Colonel Esserman. Approaching 200,000, and over those 10 
years, my officers have seen what I have seen in the past 7 
years, that the face of violence in our city--and I believe the 
face of violence as I talk to my colleagues around this 
country--is getting younger, getting younger on both sides of 
the violence, getting younger on those who are victims, getting 
younger on those who are victimized.
    And I thank you for calling attention to it because what 
you do not want is America's police chiefs to be distracted--
not to be distracted by issues of 287 and immigration, which is 
not the issue. There is a reason less than 100 of America's 
more than 17,000 police chiefs have any interest in 287(g) at 
all. It is a distraction from the issue.
    The issue of violence and crime in our community is an 
issue today of youth, and though I do not have every answer, I 
do know more youth prisons is not the answer, Senator. It must 
be about prevention. It must be not about a life of crime but a 
life of deterrence. Not only is that more thoughtful, it is 
certainly less expensive.
    Chairman Leahy. Thank you.
    Does anybody else wish to add to that? Chief Berarducci.
    Chief Berarducci. Senator, thank you for bringing up the 
topic. I brought with me today to this hearing an officer who 
has served for 27 years, Detective Scott Thomas, and a large 
portion of that career has been dedicated to the young people. 
He currently runs our PAL program. He has been involved in our 
juvenile enforcement efforts. He was the face of DARE in Ohio 
for a decade.
    As we drove here yesterday, we got a call from the 
department. We had to arrest a 13-year-old for taking a gun to 
school. He took his mother's gun, and he was going to shoot at 
a couple other young men over a girlfriend.
    Chairman Leahy. Thirteen?
    Chief Berarducci. Thirteen years old. You know, we have him 
in custody. We have the gun in custody. And now we are going to 
have to do things to try to impact that in that school. But I 
think Detective Thomas would tell you that the time that we all 
spend, each of us, with these children is probably our most 
important time. And, you know, the 65 that we have in our PAL 
program are 65 kids who do not have anybody to help them with 
homework, probably are not getting a meal when they get home 
from school, and do not have positive role models, and that is 
what we give them with the officers from the Medina Police 
Department. And I think each of us have found that to be the 
case, and that is a top priority in my city.
    Thank you.
    Chairman Leahy. Dr. Muhlhausen.
    Mr. Muhlhausen. I have some more comments on juvenile 
justice issues. During 1990, I worked in juvenile corrections 
in Baltimore, Maryland, and one of the things I noticed when I 
worked with youth coming out of Baltimore City was that in a 
secure facility a lot of these youth would behave very well, 
when they had a parental figure, an authoritative figure 
telling them how to behave or making sure that they were 
behaving well. And a lot of these kids would just bring a smile 
to your face.
    But when they were released from the correctional facility 
and went back into the community, they had no supervision in 
their lives, and I am speaking primarily about families, and 
they would return back to a life of crime. And they would come 
back in, and I would look at them and go, you know, I would say 
to this young man, ``Why are you back? '' And he goes, ``Mr. 
Muhlhausen, I went back to my old ways.'' I am, like, ``Why? '' 
He is, like, ``Because back home I have no supervision, I have 
nothing in my life, somebody sitting there and telling me, you 
know, to put a check on me.''
    Chairman Leahy. Doesn't that go to what Chief Berarducci--
--
    Mr. Muhlhausen. Yes. I think in a lot of cases with youth, 
it comes down to the family and positive mentoring that can 
help guide these young people, because a lot of times a lot of 
these individuals will behave or be very nice people to be 
around, very pleasant people when they have the appropriate 
restrictions or sort of self-control placed on them. But then 
when that is absent, peer pressure can lead them to a negative 
lifestyle.
    Chairman Leahy. I happen to agree. You see this with your 
own kids. You see this with--those who are in law enforcement 
see it. It is a difficult thing. Everybody wants to talk about 
the good old days, but it was different growing up in a small 
city in Vermont when I did because everybody knew everybody 
else, and if you did misbehave, five neighbors would call your 
parents, and that was usually far more frightening, with all 
due respect to these law enforcement people, than anybody in 
law enforcement. And now you have by necessity both parents 
working. Sometimes you do not have both parents with the 
children. That is why I think these mentoring programs, Boys 
and Girls Clubs, things like that, are very, very important and 
give some positive role models but give somebody who can say, 
``Wait a minute. Do not do that. You are stepping over the 
line.''
    Sometimes young people can do some very terrible crimes, 
and we forget they are young people, and they needed somebody 
to put them on the straight path before the crimes. After the 
crimes, you have lost your opportunity.
    I think every police officer here would say that they would 
rather prevent a crime from happening than have all the 
resources in the world to investigate it after the fact to go 
after somebody.
    Chief Schirling you are going to get the last word on this. 
Go ahead, sir.
    Chief Schirling. Thank you, Mr. Chairman. You have heard 
from all of my colleagues about partnership, and policing does 
not exist in a vacuum. It does not exist in a vacuum in 
creating community safety and health. The cyclical nature of 
crime, whether it is in a neighborhood or potentially in a 
family, as you have seen as a prosecutor, the sort of 
generational recidivism that can occur and that is observed on 
the street each day has its roots outside the criminal justice 
system. And innovative strategies that we have discussed today 
I think have to have in mind the concept that comprehensive 
strategies need to involve investments in education, in the 
health care system, in mental health in particular, and other 
core needs in order to change the course of some of the youth 
that are on the path to potential tragedy.
    I gave Colonel Esserman a book earlier today by Mark 
Kleiman, who is a professor at the University of California. It 
is entitled ``When Brute Force Fails, How to Have Less Crime 
and Less Punishment'', and one snippet of that book sort of 
encapsulates this for me. He said, ``The more credible a threat 
is, the less often it has to be carried out.'' And I do not 
think that he is talking exclusively about the threat of 
punishment from the criminal justice system but the threat of 
some structure, the threat of some sanction on the part of the 
youth that Mr. Muhlhausen described that was back in the system 
because they did not have someone setting boundaries.
    Chairman Leahy. You know, it is interesting. This is not 
necessarily directly related, but I recall once at the 
University of Vermont when I was a prosecutor, it was a time of 
great tension over Kent State and Vietnam and Cambodia and so 
on. A very, very large rally and a march in downtown Burlington 
was going on. And a number of other parts of the country were 
turning violent, and we were hoping to avoid all violence, and 
we did. But I recall a lot of the professors and others 
marching along and saying, ``Hi, Jim. Hi, Sue. Hi, Bob.'' And 
the psychological effect of that, ``Ooops, I am not a nameless 
person in a crowd of people. Somebody has spotted me.'' I mean, 
that is just one thing, but it was more effective than sending 
a lot of police officers, even though we had the police 
officers to control traffic and everything else and basically 
urge people to go into one thing. In fact, one very innovative 
sergeant in the Burlington Police Department led them with the 
blue lights flashing down the hill from the campus, back up the 
hill, down the hill from the campus, back up the hill. For 
those who have not seen it, it is a very steep hill. About the 
fourth time of that--it was a chilly day, a chilly evening. He 
was in his cruiser driving up and down. About the fourth time, 
three-quarters of that crowd was gone.
    With that, we will recess. I will keep the record open for 
a week. Obviously, any one of you, feel free to add anything 
more to the record you want, and I thank you for taking the 
time.
    [Whereupon, at 4:08 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
